VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS



                                                                     Department of 

                                                                    Veterans Affairs 

                                                                         Review of 

                                                                     VA’s Programs for 

                                                                     Addressing Climate 

                                                                          Change 





                                                                                       June 28, 2013
                                                                                        13-01846-235 

               ACRONYMS AND ABBREVIATIONS

E.O.           Executive Order
OAEM           Office of Asset Enterprise Management
OIG            Office of Inspector General
OMB            Office of Management and Budget




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                 (Hotline Information: www.va.gov/oig/hotline) 

                      Report Highlights: Review of VA’s
                      Programs for Addressing Climate
                      Change

Why We Did This Review                           What We Recommend

We conducted this review in response to a        We recommended the Executive in Charge
February 25, 2013, request from the              for the Office of Management and Chief
Congressional Bicameral Task Force on            Financial Officer coordinate with the Acting
Climate Change to assess whether VA is           Assistant Secretary of the Office of Human
doing all that it can to address this growing    Resources and Administration to implement
threat.     Specifically, the Task Force         existing telework expansion plans and to
requested that we identify applicable climate    encourage VA employees to use alternative
change requirements and determine VA’s           forms of commuting for reducing
compliance in meeting those requirements.        greenhouse gas emissions. The Executive in
In addition, the Task Force asked that we        Charge should also identify additional
assess    VA’s      authority    to     reduce   strategies for meeting requirements to
heat-trapping pollution emissions and make       reduce both greenhouse gas emissions and
the Nation more resilient to the effects of      fleet petroleum consumption.
climate change.
                                                 Agency Comments
What We Found
                                                 The Executive in Charge for the Office of
VA partially complied with several key           Management and Chief Financial Officer
requirements and can do more to address          concurred      with    our     findings    and
climate change. VA has done considerable         recommendations and provided technical
planning and met selected targets in the         revisions that we incorporated in our report as
areas of energy management, water                appropriate.      The Office of Human
management,        and    green     buildings    Resources and Administration planned to
sustainability. However, VA did not meet         work with the Office of Management to
selected targets for reducing greenhouse gas     address      the    report    findings     and
emissions and fleet petroleum consumption.       recommendations. We will follow up on
This was due to factors such as significant      implementation of the recommendations.
growth in VA programs and competing
operational standards and regulatory
requirements. Since 2008, VA has increased
staffing by 21 percent and expanded its fleet
by 39 percent to better serve veteran needs,
but this has posed a challenge to meeting
                                                           LINDA A. HALLIDAY
certain targets.
                                                        Assistant Inspector General
Generally, VA had the authority needed to               for Audits and Evaluations
reduce heat-trapping pollution emissions and
strengthen its resiliency to climate change
effects.

                                                                                               i
                                           TABLE OF CONTENTS 


Introduction..................................................................................................................................... 1
 

Results and Recommendations ....................................................................................................... 2
 

    Finding                VA Can Do More To Address Climate Change................................................. 2
 

                           Recommendations .............................................................................................. 8
 

Appendix A                 Background ........................................................................................................ 9
 

Appendix B                 Scope and Methodology....................................................................................10
 

Appendix C                 Executive in Charge for the Office of Management Comments ...................... 11
 

Appendix D                 Office of Inspector General Contact and Staff Acknowledgments................. 12
 

Appendix E                 Report Distribution ......................................................................................... 13
 




                                                                                                                                                 ii
                                            Review of VA’s Programs for Addressing Climate Change



                    INTRODUCTION
Objectives          We conducted this review in response to a February 25, 2013, request from
                    the Congressional Bicameral Task Force on Climate Change to assess VA’s
                    compliance with applicable requirements for addressing climate change. The
                    Task Force also requested that we assess VA’s authority to reduce
                    heat-trapping pollution (also known as greenhouse gas emissions) and make
                    the Nation more resilient to the effects of climate change.

Climate             Climate change is a significant and persistent change in an area’s average
Change              climate conditions. It is not a single weather event; it is determined by the
Issues
                    long-term pattern of temperature and precipitation averages and extremes at
                    a location. Climate change effects, such as rising sea levels and increasing
                    frequency and intensity of heat waves, droughts, and floods, impact nearly
                    every aspect of society, from our ecosystems and infrastructure to our public
                    health and economic and national security. The Federal Government has a
                    responsibility to safeguard Federal services and resources to help manage
                    climate-related risks by improving access to climate information, enhancing
                    coordination and capacity, and leading and supporting actions that reduce
                    vulnerability and increase resilience.

                    In February 2013, the Government Accountability Office added climate
                    change to its list of high-risk Federal program areas. According to the
                    Government Accountability Office, climate change poses not only
                    environmental and economic risks but also a significant financial risk to the
                    Government. The Government Accountability Office reported that the
                    Federal Government is not well organized to address the fiscal exposure
                    presented by climate change, partly because of the inherently complicated
                    cross-cutting nature of the issue. Each agency has a unique responsibility in
                    advancing toward a national adaptation strategy.

Climate Change      Within VA, the Office of Asset Enterprise Management (OAEM) is
Responsibilities    responsible for developing VA guidance on climate change planning.
Within VA
                    OAEM coordinates the submission of required climate change adaptation
                    reports to the Council on Environmental Quality, the Office of Management
                    and Budget (OMB), and other applicable oversight organizations. The Green
                    Management Program within OAEM oversees the Department’s
                    implementation of Federal and VA climate change adaptation policy.
                    Through a combination of risk mitigation strategies and adaptation planning,
                    VA expects to increase its ability to recover from or adjust to climate change,
                    thereby improving its resiliency.

Other                  Appendix A provides additional background information.
Information
                       Appendix B outlines the scope and methodology for our review.
                       Appendix C provides Managements comments to this report.


VA Office of Inspector General                                                                   1
                                           Review of VA’s Programs for Addressing Climate Change



                    RESULTS AND RECOMMENDATIONS
Finding 	           VA Can Do More To Address Climate Change

                    VA partially complied with several key requirements for addressing climate
                    change. VA has conducted considerable planning and met selected targets in
                    the areas of energy management, water management, and green buildings
                    sustainability. However, VA did not meet selected targets for reducing
                    greenhouse gas emissions and fleet petroleum consumption. This was due to
                    factors such as significant growth in VA programs and competing
                    operational standards and regulatory requirements. VA needs to implement
                    existing telework expansion plans and encourage employees to use
                    alternative forms of commuting for reducing greenhouse gas emissions. VA
                    also needs to identify additional strategies for meeting requirements to
                    reduce both greenhouse gas emissions and fleet petroleum consumption.
                    Generally, VA had the authority needed to reduce heat-trapping pollution
                    emissions and strengthen its resiliency to climate change effects.

Key Directives	     VA must comply with applicable climate change planning requirements
                    found in criteria such as executive orders and memoranda, laws, and
                    regulations. We determined that the following directives provide the primary
                    requirements for VA to manage climate change.

                    	 National Energy Conservation Policy Act of 1978—The underlying
                       authority for Federal energy management goals and requirements. This
                       act requires Federal agencies to submit a report annually to the
                       Department of Energy on the agency’s efforts to meet energy
                       management requirements.
                    	 Energy Policy Act of 2005—Defines performance standards for energy
                       and water management.
                    	 Executive     Order      (E.O.)     13423,     Strengthening     Federal
                       Environmental, Energy, and Transportation Management—Dated
                       January 24, 2007, sets sustainability goals for Federal agency operations
                       and directs agencies to improve their environmental, energy, and
                       economic performance.
                    	 Energy Independence and Security Act of 2007—Governs initiatives
                       to move the Nation toward energy independence and security.
                    	 E.O. 13514, Federal Leadership in Environmental, Energy, and
                       Economic Performance—Dated October 5, 2009, requires agencies to
                       develop strategic sustainability performance plans focused on
                       cost-effective projects and programs and to reduce greenhouse gas
                       emissions.



VA Office of Inspector General                                                                2
                                           Review of VA’s Programs for Addressing Climate Change


                    	 Federal Agency Climate Change Adaptation Planning Implementing
                       Instruction for E.O. 13514—Dated March 4, 2011, requires Federal
                       agencies to integrate climate change adaptation into agency policies and
                       practices.
                    	 Presidential Memorandum on Federal Fleet Performance—Dated
                       May 24, 2011, directs Federal agencies to implement Government-wide
                       fleet management practices, including purchase of alternative fuel
                       vehicles and decrease in petroleum consumption.

                    OMB uses key targets identified in these collective criteria to annually
                    prepare a scorecard on Federal agencies’ performance in addressing climate
                    change. The performance targets are categorized into the following five
                    program areas.

                        	 Energy Management
                        	 Water Management
                        	 Sustainable Green Buildings
                        	 Greenhouse Gas Emissions
                        	 Fleet Petroleum Consumption

Addressing          VA has conducted considerable planning to support its efforts to meet the
Requirements        requirements for addressing climate change. For example, VA develops an
                    annual Strategic Sustainability Performance Plan (Sustainability Plan) in
                    accordance with E.O. 13514. The plan identifies VA’s sustainability goals,
                    defines a strategy, and prioritizes actions for meeting those goals. VA also
                    prepares an annual Energy Management Report, Sustainable Buildings
                    Implementation Plan, Greenhouse Gas Inventory Report, Vehicle Fleet
                    Management Action Plan, and Alternative Fuel Vehicle Report. VA
                    develops and submits these plans and reports as required to the applicable
                    oversight organizations, including OMB, the Department of Energy, and the
                    Council on Environmental Quality.

Meeting Key         Based on the January 2013 OMB Scorecard on Sustainability/Energy, we
Targets             determined that VA met the performance targets for addressing climate
                    change in three of the five program areas—Energy Management, Water
                    Management, and Sustainable Green Buildings. VA’s challenges in meeting
                    the targets in the two remaining areas, Greenhouse Gas Emissions and Fleet
                    Petroleum Consumption, were due to significant growth in VA programs and
                    competing operational standards and regulatory requirements.




VA Office of Inspector General                                                                3
                                                Review of VA’s Programs for Addressing Climate Change


                    Table 1 summarizes VA’s performance in meeting key requirements for
                    addressing climate change in the five program areas during FY 2012.

                 Table 1. VA Performance in Meeting Key Climate Change Targets
                                                                                                   Target
       Program                                                                                      Met?
                          Target Performance                    Actual Performance
         Area
                                                                                                 Yes     No
      Energy          Reduce building energy       Building energy intensity                    √
      Management       intensity by 21% in FY 2012   reduced by 21.4%
                      Achieve 5% renewable energy  Achieved 13.2% in renewably                  √
                       consumption in FY 2012        fueled electricity consumption
      Water           Reduce Potable water                Potable water consumption             √
      Management       consumption by 10 % in               reduced by 24.3%
                       FY 2012
      Sustainable     Achieve 9% sustainable              Achieved 9.21% sustainable            √
      Green            buildings in FY 2012                 buildings
      Buildings
      Greenhouse      Reduce Scope 1 & 2 by 6% in  Scope 1 & 2 reduced by 5.8%                         √
      Gas              FY 2012
      Emissions*      Reduce Scope 3 by 2% in      Scope 3 increased by 18.8%                          √
                       FY 2012
      Fleet           Reduce fuel consumption by   Increased fuel consumption by                       √
      Petroleum        at least 14% in FY 2012       2.5%
      Consumption
       Source: January 2013 OMB Scorecard on Sustainability/Energy and VA’s Strategic Sustainability
       Performance Plan, dated June 2012. We did not validate the VA performance data reported.

       *Note: Scope 1 greenhouse gas emissions are from sources that are owned or controlled by a Federal
       agency. Scope 2 greenhouse gas emissions are generated from electricity, heat, or steam purchased by a
       Federal agency. Scope 3 greenhouse gas emissions are from sources not owned or directly controlled by a
       Federal agency but related to agency activities.

Energy	             VA met FY 2012 targets for reducing building energy intensity and
Management 	        increasing use of renewable energy. According to the January 2013 OMB
                    Scorecard, VA was also on track to meet its long-term performance
                    requirements for energy management by FY 2015. VA met these targets
                    through a combination of energy conservation measures and installation of
                    onsite renewable energy systems. In addition, VA undertook onsite
                    renewable energy projects involving solar, wind, geothermal power, and
                    combined heat and power. VA also applied cross-cutting management
                    approaches involving environmental and energy impact decision making.

Water               VA exceeded the FY 2012 target to reduce potable water consumption by
Management          10 percent and is on track to meet the overall goal of 26 percent by FY 2020.
                    According to OAEM’s FY 2012 Energy Narrative, VA entities identified

VA Office of Inspector General                                                                               4
                                            Review of VA’s Programs for Addressing Climate Change


                    potential water conservation measures during energy assessments. Further,
                    VA completed installation of 3,200 advanced non-electric meters to monitor
                    steam, chilled water, natural gas, water consumption, and almost
                    1,400 electric meters.

Sustainable         VA met the 9 percent target for the number of sustainable buildings in
Green Buildings     FY 2012. In 2010, VA awarded a contract for a third-party assessment of all
                    VA medical facilities, which occurred in 2011 and 2012. With these
                    assessments, VA pursued sustainability in existing facilities and, according
                    to the FY 2014 Congressional Budget Submission, had more than
                    300 sustainable buildings. VA also had 30 Energy Star-labeled medical
                    facilities, which accounted for over 25 percent of the U.S hospitals listed in
                    the Energy Star Portfolio Manager. With such accomplishments, VA has the
                    potential to meet the required target of 15 percent of sustainable buildings by
                    FY 2015.

Greenhouse          VA did not meet its FY 2012 targets for reducing greenhouse gas emissions.
Gas Emissions       Greenhouse gas emissions are categorized according to scope or the amount
                    of control VA has over the emissions.

                    	 Scope 1 greenhouse gas emissions are from sources that are owned or
                       controlled by a Federal agency.
                    	 Scope 2 greenhouse gas emissions are generated from electricity, heat, or
                       steam purchased by a Federal agency.
                    	 Scope 3 greenhouse gas emissions are from sources not owned or directly
                       controlled by a Federal agency but related to agency activities.
                       Scope 3 greenhouse gas emissions include employee business travel,
                       Federal employee commuting, and contracted waste disposal.

                    E.O. 13514 requires VA to identify and report an annual comprehensive
                    greenhouse gas inventory beginning in FY 2010 and to establish
                    FY 2020 annual greenhouse gas emission reduction targets relative to a
                    FY 2008 baseline. VA established a combined Scope 1 & 2 reduction target
                    of 29.8 percent and a Scope 3 reduction target of 10 percent. Although not
                    required in E.O. 13514, VA also established annual targets to measure
                    progress toward long-term goals, as required by OMB. For FY 2012, VA’s
                    combined Scope 1 & 2 reduction target was 6 percent; its Scope 3 reduction
                    target was 2 percent.

                    VA missed its FY 2012 Scope 1 & 2 greenhouse gas emissions target of
                    6 percent by 0.2 percent. Despite significant increases in the number of
                    patients and its square footage owned or leased, VA was able to reduce its
                    emissions by 5.8 percent. This was done by a reduction in energy intensity
                    and funding renewable energy projects at VA facilities. Although VA
                    expects to meet the FY 2020 Scope 1 & 2 greenhouse gas emissions
                    reduction goal through continued reduction in energy intensity and

VA Office of Inspector General                                                                   5
                                             Review of VA’s Programs for Addressing Climate Change


                    development of these projects, Green Management Program personnel
                    emphasized the long-term nature of this process. In the short term, VA will
                    continue to purchase renewable energy certificates to help reduce its
                    Scope 1 & 2 greenhouse gas emissions. These certificates are considered
                    equivalent to purchasing renewable energy and contribute to VA meeting its
                    environmental goals.

                    VA did not meet its FY 2012 goal to reduce Scope 3 greenhouse gas
                    emissions by 2 percent. Although Scope 3 greenhouse gas emissions
                    decreased 1.9 percent from 2011, VA still exceeded the 2008 baseline by
                    18.8 percent. VA did not reduce Scope 3 greenhouse gas emissions because
                    of an increase in the veteran population and a corresponding increase in the
                    number of employees needed to address the increasing mission. From
                    2008 to 2012, VA’s full-time employees increased from nearly 249,500 to
                    almost 302,300 (over 21 percent). Approximately 81 percent of VA’s
                    Scope 3 greenhouse gas emissions consist of commuting Federal employees.
                    Green Management Program personnel stated that VA had less control over
                    Scope 3 than Scopes 1 & 2 because it could not direct employees to telework
                    or tell employees how to commute.

                    VA officials stated that the Department has a plan to expand telework, which
                    may help reduce greenhouse gas emissions. By the end of FY 2013, VA
                    would like to have about 16,600 (5 percent) of its total employees
                    teleworking and about 9,900 (3 percent) of the total employees
                    teleworking 3 or more days per week. VA’s telework eligible employees
                    grew 2 percent from April 2012 to May 2013, and it has met the goal of
                    5 percent of its total employees teleworking. However, VA officials stated
                    that they do not expect the Department to meet all of its telework goals. As
                    of April 2013, less than 1 percent of VA’s employees teleworked at least
                    3 days per week.

                    VA expects to increase telework through expanded outreach efforts and
                    enhanced training. In addition, VA’s Real Property Cost Savings and
                    Innovation Plan identifies strategies for expanding telework that are expected
                    to help reduce greenhouse gas emissions. Strategies include review of
                    telework classifications to ensure jobs are appropriately classified, increasing
                    the number of employees teleworking 3 or more days a week, establishing
                    space-sharing requirements, and terminating costly leases in geographic
                    areas of concentrated telework. Greenhouse gas reductions could also be
                    achieved through Departmental efforts to encourage employees to use
                    alternative forms of commuting (for example, public transit, biking, walking,
                    and carpooling).

Fleet Petroleum     VA did not meet the requirement to reduce fleet petroleum consumption by
Consumption         14 percent in FY 2012. Rather, VA’s fleet petroleum use increased and
                    exceeded the target by 16.5 percentage points. VA’s Strategic Sustainability
                    Performance Plan, dated June 2012, states that meeting fuel consumption

VA Office of Inspector General                                                                    6
                                                    Review of VA’s Programs for Addressing Climate Change


                    reduction goals was a significant challenge due to the Department’s growing
                    mission. Specifically, an increase in fleet size was necessary to conduct
                    outreach programs and home-based patient care, especially in rural areas.
                    VA’s fleet grew by about 39 percent between FY 2008 and FY 2012. Many
                    expanded health care programs in rural areas did not have alternative fuel
                    filling stations readily available for alternative fuel vehicles. Also, VA
                    received and used donated vehicles that did not have alternative fuel
                    capability. Such conditions hindered VA in meeting its petroleum
                    consumption reduction targets.

                    Although VA did not meet the FY 2012 goal to reduce petroleum
                    consumption, falling short of the target by 16.5 percent, VA has
                    demonstrated a commitment to meeting the goal. For example, VA
                    decreased its petroleum consumption by 4 percent from FY 2011 to 2012 and
                    increased its use of alternative vehicle fuels about 24 percent over the same
                    period. Further, VA encourages the acquisition of alternative fuel vehicles
                    whenever possible and requires that all new vehicle purchases have low
                    greenhouse gas emissions whenever available.

                    VA has an ongoing program to install onsite alternative fueling stations, with
                    45 E-851 stations and 11 electric vehicle charging stations installed as of
                    FY 2012. VA officials also stated they intend to replace 54 GSA leased
                    petroleum fuel vehicles with plug-in electric vehicles. VA policy requires
                    defaulting to the smallest vehicle type that will fulfill a mission need.
                    Additionally, VA is examining the use of external car-sharing programs,
                    such as Zipcar, and promoting vehicle sharing across Departmental entities
                    that cannot justify maintaining full-time vehicles.

Reducing            Generally, VA had the authority needed to reduce heat-trapping pollution
Greenhouse          emissions. VA reduced Scope 1 & 2 greenhouse gas emissions through
Gas Emissions       reductions in energy intensity, increases in renewable energy projects, and
                    the use of renewable energy certificates. Although VA has not yet met the
                    target for Scope 3 greenhouse gas emissions reduction, it does have a plan to
                    decrease greenhouse gas emissions by expanding telework and reducing
                    Federal employee commuting.

                    VA officials stated that they would like some additional authority concerning
                    flexibility to fuel non-VA fleet vehicles, extend utility agreements, use
                    design-build contracts, and trade emissions credits. It submitted proposals
                    for these areas to the Office of Congressional and Legislative Affairs for the
                    FY 2015 budget cycle.

Strengthening       VA also has adequate authority to work toward making the Nation more
Resiliency          resilient to the effects of climate change. VA met the requirements related to
                    climate change adaptation planning. E.O. 13514 requires VA to evaluate

                    1
                        E-85 is a blend of 85 percent ethanol and 15 percent gasoline used in flexible fuel vehicles.

VA Office of Inspector General                                                                                      7
                                           Review of VA’s Programs for Addressing Climate Change


                    agency climate change risks and vulnerabilities and to manage the effects of
                    climate change on its operations and programs. In response, VA established
                    a climate change adaptation planning directive, conducted a
                    Department-wide high-level climate change vulnerability analysis, and
                    developed a climate change adaptation plan based on its analysis.

Conclusion          VA has complied with most mandates and statutory requirements,
                    successfully meeting energy, water, and sustainable green buildings goals.
                    However, VA faces challenges in meeting greenhouse gas emissions and
                    fleet petroleum consumption reduction targets per the most currently
                    reported information. VA would benefit from implementing existing plans
                    to expand telework and identifying additional strategies for meeting these
                    requirements. VA continues to demonstrate a commitment to addressing the
                    high-risk climate change concern in balance with providing health care
                    services and other benefits to our Nation’s veterans. Since VA has complied
                    with most requirements for addressing climate change and documented its
                    vulnerabilities, we concluded, and VA officials agree, that no additional
                    authority is needed.

                    Recommendations
                    1.	 We recommend the Executive in Charge for the Office of Management
                        and Chief Financial Officer coordinate with the Acting Assistant
                        Secretary of the Office of Human Resources and Administration to
                        implement existing telework expansion plans for reducing greenhouse
                        gas emissions and to encourage VA employees to use alternative forms
                        of commuting.

                    2.	 We recommend the Executive in Charge for the Office of Management
                        and Chief Financial Officer identify additional strategies for meeting
                        requirements to reduce greenhouse gas emissions.

                    3.	 We recommend the Executive in Charge for the Office of Management
                        and Chief Financial Officer identify additional strategies for meeting
                        requirements to reduce fleet petroleum consumption.

Management          The Executive in Charge for the Office of Management and Chief Financial
Comments            Officer concurred with our report findings and recommendations. The
and OIG
Response
                    Office of Human Resources and Administration planned to work with the
                    Office of Management to address the report findings and recommendations.
                    We will follow up on implementation of the recommendations.




VA Office of Inspector General                                                                8
                                            Review of VA’s Programs for Addressing Climate Change


Appendix A          Background

                    VA’s primary responsibility is to care for America’s veterans, their families,
                    and survivors. As VA seeks to provide veterans with high-quality service,
                    the agency must also adapt to the challenges and address the effects of
                    climate change. Per Federal and regulatory guidance, VA must be
                    committed to meeting the challenges a changing climate poses to the VA
                    workforce and our Nation as whole.

                    In October 2009, President Obama signed Executive Order 13514, Federal
                    Leadership Environment, Energy, and Economic Performance.                This
                    Executive Order requires reductions in greenhouse gas emissions, fuel,
                    energy, and water. In September 2010, the VA Secretary signed the
                    Sustainability Management Policy Memorandum, which committed the
                    Department to complying with legislation such as E.O. 13514, the Energy
                    Independence and Security Act of 2007, and the Energy Policy Act of 2005.
                    The criteria in these directives require Federal agencies to develop and meet
                    numerous reports, performance targets, and plans such as the Strategic
                    Sustainability Performance Plan, the climate change adaptation policy, and
                    the fleet management action plan.

                    The Office of Asset Enterprise Management (OAEM) is responsible for
                    defining VA’s guidelines for climate change adaptation planning and
                    coordinating the submission of required climate change adaptation reports to
                    the Council on Environmental Quality, OMB, and other applicable oversight
                    organizations. The Green Management Program Service reports to OAEM
                    and oversees the implementation of climate change policy.




VA Office of Inspector General                                                                  9
                                            Review of VA’s Programs for Addressing Climate Change


Appendix B          Scope and Methodology

Scope               We conducted our review work from March 2013 through May 2013 at VA
                    Central Office located in Washington, D.C. Our review focused on assessing
                    VA’s compliance with existing climate change requirements, its progress in
                    reducing greenhouse gas emissions, and its integration of climate change
                    adaptation planning into its policies and procedures.

Methodology         To assess VA’s compliance with existing climate change requirements, we
                    reviewed applicable legislation, regulations, executive orders, VA Directives,
                    and identified requirements. While we did not assess them for accuracy or
                    completeness, we reviewed various plans and reports that VA developed to
                    support its efforts to address climate change. We assessed VA progress in
                    meeting the requirements, including greenhouse gas emission reductions, by
                    reviewing the January 2012 and 2013 OMB Scorecards on
                    Sustainability/Energy, the June 2012 Strategic Sustainability Performance
                    Plan, and data excerpts from the greenhouse gas reporting portal. We
                    discussed the review results with Green Management Program Service
                    officials, reviewed additional supporting documentation when necessary, and
                    documented the results.

                    To assess VA’s progress in integrating climate change adaptation planning
                    into its policies and procedures, we identified requirements in the Council on
                    Environmental Quality Chair’s Implementing Instructions and obtained
                    supporting documentation showing where the Department had met the
                    requirements. We discussed the results with Green Management Program
                    Service officials.

Data                To assess the reliability of VA’s progress in reducing greenhouse gas
Reliability         emissions, we discussed with agency officials the data quality control
                    procedures and reviewed the 2013 greenhouse gas Inventory Qualitative
                    Report section. We also discussed data validation procedures with agency
                    officials. We did not perform any additional data reliability testing or review
                    any additional corroborating evidence from alternative databases. We
                    believe these procedures were sufficient to support our limited-scope review
                    objective.

Government          We conducted our review to respond to specific questions from the
Standards           Congressional Bicameral Task Force on Climate Change. We performed our
                    work to address the Task Force’s issues and did not use specific standards.
                    However, we took steps to ensure the staff assigned was independent, which
                    is consistent with the Council of Inspectors General on Integrity and
                    Efficiency Quality Standards for Inspection.




VA Office of Inspector General                                                                  10
                                                               Review of VA’s Programs for Addressing Climate Change


Appendix C                       Executive in Charge for the Office of Management
                                 Comments



                  Department of                                                Memorandum
                  Veterans Affairs
          Date:              June 21, 2013 

         From:               Executive in Charge, Office of Management, and Chief Financial Officer (004) 

          Subj:              Office  of  Management  Comments  on  OIG  Draft,  “Review  of  VA’s  Programs  for 
                             Addressing Climate Change” 

           To:               Assistant Inspector General for Audits and Evaluations (52) 


                  1.	        The  Office  of  Management  (OM)  appreciates  the  opportunity  to  revies  and 
                             comment  on  the  OIG  Draft  Report,  “Review  of  VA’s  Programs  for  Addressing 
                             Climate Change.”  I concur with the OIG findings and recommendations. 

                  2.	        Attached  are  OM’s  requested  changes  for  OIG  consideration.    Also  attached,  for 
                             reference  purposes,  are  copies  of  the  report  pages  where  our  recommended 
                             changes would be reflected. 

                  3.	        If  you  have  any  questions,  please  call  me  or  have  a  member  of  your  staff  contact 
                             Cynthia Codova, Office of Asset Enterprise Management, at (202) 632‐5999. 

                              


                              




                          


                          


                          


                          


       *We made minor technical revisions throughout our report as appropriate and did not include a copy of
        the Office of Management’s recommended changes in this Appendix.



VA Office of Inspector General                                                                                                  11
                                        Review of VA’s Programs for Addressing Climate Change


Appendix D          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	          For more information about this report, please
                                             contact the Office of Inspector General at
                                             (202) 461-4720.

                      Acknowledgments        Julius Hoffman, Director
                                             Ruth Blevins
                                             Sheila Brown
                                             Keesha Chapman
                                             Felicia Stovall




VA Office of Inspector General                                                            12
                                            Review of VA’s Programs for Addressing Climate Change


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Office of Management
                    Office of Human Resources and Administration
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    Bicameral Task Force on Climate Change
                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget


                    This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                13
